                        Federal Audit Executive Council Annual Conference 2014
                                     U.S. Patent and Trade Office, Alexandria VA
                                                             September 4, 2014




       DATA Act
  A Treasury OIG
    Perspective

Bob Taylor
(202) 927-5792
TaylorR@oig.treas.gov


                                                                         Slide 1
What I’ll Talk About—
 IG and GAO Oversight
 Timeline, or Where Things Get Really Messy
 Treasury OIG Audits
 Looking Ahead



                                          Slide 2
              IG and GAO Oversight

IGs – 3 reviews
In consultation with the Comptroller General
 review a statistically valid sampling of the spending
   data submitted by the Federal agency
 submit to Congress and make publically available, a
   report assessing
   • completeness, timeliness, quality, and accuracy of
     the data sampled
   • implementation and use of Data Standards by the
     Federal agency

                                                    Slide 3
GAO – 3 reviews
After a review of IG reports
 submit to Congress and make publically available, a
  report assessing and comparing
  • data completeness, timeliness, quality, and
     accuracy of the data submitted by Federal agencies
  • implementation and use of data standards by
     Federal agencies




                                                   Slide 4
                      Timeline
February 2014     OMB transferred programmatic
                  responsibilities for the
                  USASpending.gov website from
                  GSA to Treasury’s Fiscal Service

May 9, 2014       DATA Act passed

by May 9, 2015    OMB and Treasury to issue
                  guidance on Data Standards

November 2016??   1st IG report (due 18 months
                  after Data Standards guidance)


                                                   Slide 5
by May 2017??     Federal agencies start reporting
                  financial and payment information
                  (no later than 2 years after Data
                  Standards guidance) Note: There is
                  a DoD exception

November 2017??   1st GAO report (due 30 months
                  after Data Standards guidance)

by May 2018??     OMB/Treasury ensure that Data
                  Standards are applied to the data
                  on USASpending.gov or successor
                  system (no later than 3 years after
                  Data Standards guidance)
                                                   Slide 6
November 2018??   2nd IG report (due same date as
                  the 2nd financial statement audit
                  report that is submitted after the
                  1st report) Note: May be part of the
                  financial statement audit report

November 2019??   2nd GAO report
November 2020??   3rd IG report Note: May be part
                  of the financial statement audit
                  report

November 2021??   3rd GAO report

                                                     Slide 7
               Treasury OIG Audits
 Fiscal Service’s Standup of a Financial Management
  Transparency Office and Administration of
  USASpending.gov (start – March 2014)
   • Assess efforts to improve the transparency and
      accountability of Federal financial transactions
   • Review standup of a government-wide financial
      management transparency office
   • Review actions to meet new programmatic
      responsibilities for USAspending.gov




                                                    Slide 8
 Treasury’s Implementation of the DATA Act (start –
  August 2014)
  • A series of audits
  • Determine the sufficiency of plans and actions
    taken to timely comply with the DATA Act
      establish Data Standards
      ensure financial data is accurately posted and
       displayed on USASpending.gov or successor
       system
      ensure Data Standards are applied to financial
       data on USASspending.gov or successor system

                                                 Slide 9
 establish a data analysis center or expand an
  existing service to provide data, tools, and
  techniques to prevent/reduce improper
  payments and improve efficiency/transparency
  in Federal spending




                                            Slide 10
                   Looking Ahead
 In July 2014, we briefed the CIGIE Audit Committee
  on our perspective of the DATA Act and how to
  facilitate the required reviews for the IG Community
 Proposed FAEC Working Group to (initial thoughts):
  • Coordinate with GAO
  • Develop common audit approach
  • Develop tools for required analyses
  • Determine scope
  • Keep stakeholders informed

 When established, we hope you volunteer!
                                                   Slide 11
